<html>
<title> - FULL COMMITTEE ORGANIZATION MEETING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                             FULL COMMITTEE 
                          ORGANIZATION MEETING 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 31, 2007

                               __________

                          Serial Number 110-1

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                     U.S. GOVERNMENT PRINTING OFFICE

33-330 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


JUANITA MILLENDER-McDONALD,          STEVE CHABOT, Ohio, Ranking Member
California                           ROSCOE BARTLETT, Maryland
WILLIAM JEFFERSON, Louisiana         SAM GRAVES, Missouri
HEATH SHULER, North Carolina         TODD AKIN, Missouri
CHARLIE GONZALEZ, Texas              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              MARILYN MUSGRAVE, Colorado
RAUL GRIJALVA, Arizona               STEVE KING, Iowa
MICHAEL MICHAUD, Maine               JEFF FORTENBERRY, Nebraska
MELISSA BEAN, Illinois               LYNN WESTMORELAND, Georgia
HENRY CUELLAR, Texas                 LOUIE GOHMERT, Texas
DAN LIPINSKI, Illinois               DEAN HELLER, Nevada
GWEN MOORE, Wisconsin                DAVID DAVIS, Tennessee
JASON ALTMIRE, Pennsylvania          MARY FALLIN, Oklahoma
BRUCE BRALEY, Iowa                   VERN BUCHANAN, Florida
YVETTE CLARKE, New York              JIM JORDAN, Ohio
BRAD ELLSWORTH, Indiana
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

                    Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               DEAN HELLER, Nevada, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                                 ______

               Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


WILLIAM JEFFERSON, Louisiana         DAVID DAVIS, Tennessee, Ranking
HENRY CUELLAR, Texas                 ROSCOE BARTLETT, Maryland
GWEN MOORE, Wisconsin                SAM GRAVES, Missouri
YVETTE CLARKE, New York              TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  


           Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


WILLIAM JEFFERSON, Louisiana         LYNN WESTMORELAND, Georgia, 
RICK LARSEN, Washington              Ranking
DAN LIPINSKI, Illinois               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               STEVE KING, Iowa
GWEN MOORE, Wisconsin                MARILYN MUSGRAVE, Colorado
JASON ALTMIRE, Pennsylvania          MARY FALLIN, Oklahoma
JOE SESTAK, Pennsylvania             VERN BUCHANAN, Florida
                                     JIM JORDAN, Ohio

                                 ______

            Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DEAN HELLER, Nevada
HANK JOHNSON, Georgia                DAVID DAVIS, Tennessee

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


JUANITA MILLENDER-McDONALD,          LOUIE GOHMERT, Texas, Ranking
California                           LYNN WESTMORELAND, Georgia
CHARLIE GONZALEZ, Texas
RAUL GRIJALVA, Arizona

                                 (iii)

  






























                            C O N T E N T S

                              ----------                              

                    STATEMENTS BY COMMITTEE MEMBERS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Chabot, Hon. Steve...............................................     2

                           COMMITTEE BUSINESS

Passage of Committee Rules and Oversight Plan....................     3

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................     5
Chabot, Hon. Steve...............................................     8

                                  (v)

  

                 FULL COMMITTEE ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, JANUARY 31, 2007

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12:00 p.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia M. Velazquez 
[Chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Jefferson, Shuler, 
Gonzalez, Michaud, Cuellar, Lipinski, Moore, Altmire, Braley, 
Ellsworth, Chabot, Bartlett, Akin, Fortenberry, Gohmert, Davis, 
Buchanan, and Jordan.
    Staff Present: Tim Slattery, Majority Counsel; and Zuraya 
Tapia, Clerk.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    Chairwoman Velazquez. I call this Small Business Committee 
organizational meeting together.
    I want to first welcome all returning and new Members. I 
look forward to working with each of you this Congress. There 
is no question that we all have the same goal, to best advocate 
on behalf of our nation's 26 million small businesses. For this 
Committee to truly meet the needs of small firms, we must work 
together in a way that is fair and best addresses their 
concerns.
    I have always believed that there shouldn't be a Democratic 
or a Republican way when it comes to small businesses. Good 
ideas come from both sides and we need to be open and encourage 
that. With that option of today's rules package and oversight 
plan, I believe we are demonstrating to the small business 
community that we are committed to working together and 
advocating on their behalf. Small businesses deserve our 
partnership and I look forward to working with Ranking Member 
Mr. Chabot and the other Members of the Committee to accomplish 
this goal.
    We have a very diverse Committee, both ideologically and 
geographically. I believe that is our strength and we'll make 
sure that this Committee's final product benefits entrepreneurs 
in all sectors. That being said, I look forward to the 
discussions, as well as the debates, that I know will transpire 
over the next two years. I am sure they will be both lively and 
informative and I welcome that.
    Again, I welcome each of you here and I look forward to 
working with all of you.
    I would like to take this time to introduce the freshmen on 
the Committee: Congressman Heath Shuler from North Carolina, 
Representative Jason Altmire from Pennsylvania; Bruce Braley 
from Iowa; Yvette Clarke, New York; Brad Ellsworth, Indiana; 
Mr. Hank Johnson, Georgia; Joe Sestak from Pennsylvania.
    At this point, I would like to yield to the Ranking Member, 
Mr. Chabot, for any opening statement he may have.

                    STATEMENT OF MR. CHABOT

    Mr. Chabot. Thank you, Madam Chair. I thank you for 
yielding and I'll be brief. We have a vote, as we all know, so 
I'll try to keep this as brief as I possibly can.
    I want to first of all congratulate you on being the chair 
of the Small Business Committee. I know that you've been a 
hardworking Member on this Committee for a long time now and I 
know that you'll do a good job.
    I also want to commend both you and your staff for working 
so well in the transition period. With our staff, I think 
you've bent over backwards to be fair with us and we appreciate 
that. And while we will certainly have partisan differences 
over the course of the next two years, there are many issues 
that I think we can agree on and after all, 99 percent of the 
businesses in this country by definition are small businesses 
and 60 to 80 percent of the jobs that are created are created 
by small businesses. So I think we should work together as you 
indicated to improve the environment for millions of Americans 
who own or work in small businesses.
    And I would also like to introduce the freshmen Members 
that we have on our side, so I'll begin with--is Dean Heller 
here yet? No. He was Secretary of State of Nevada. He's been a 
commercial banker and stockbroker, and he will be the Ranking 
Member of the Finance and Tax Subcommittee. Next I'd like to 
introduce Dave Davis from Tennessee here. He had a very 
successful career as the owner of two healthcare and medical 
equipment businesses and David will be the Ranking Member of 
the Contracting and Technology Subcommittee. Mary Fallin, who I 
believe is not here, was a real estate broker and she was 
Oklahoma's Lieutenant Governor and she served there in a 
cabinet-level position as the State's small business advocate. 
Vern Buchanan, who is here, Vern is of Florida. Turned a small, 
quick printing franchise into an immensely successful 
enterprise and later became one of the nation's most successful 
automobile dealers and we welcome him here.
    And finally, my friend and fellow Ohioan, Jim Jordan, who 
in addition to building a very successful record in the Ohio 
General Assembly is widely known for his prowess as an all 
American wrestling champion. So we welcome Jim here. I want to 
welcome all of them to our nation's capital and our returning 
Members, Roscoe Bartlett, Sam Graves, Todd Akin, Bill Shuster, 
Marilyn Musgrave, Steve King, and Louis Gohmert who will be the 
Ranking Member of the Investigations and Oversight Committee; 
Lynn Westmoreland, who will be the Ranking Member of the 
Regulations, Healthcare and Trade Subcommittee; and finally, 
Jeff Fortenberry, who will be the Ranking Member of the Rural 
and Urban Entrepreneur Subcommittee Member.
    And with that, I'll yield back.

                  ADOPTION OF COMMITTEE RULES

    Chairwoman Velazquez. Thank you, Ranking Member. And now 
the first order of business is to adopt the Committee rules. As 
you mentioned, Ranking Member, this was done in conjunction 
both with the Democratic side and the Republican side, working 
together. Changes were well made. Those changes are positive. 
They're fair. It opens the process for more participation and 
the only way that we could be effective in providing solutions 
to the many issues impacting small businesses is by providing a 
process that is open, is fair. The minority will have one third 
of everything when it comes to having witnesses, including the 
budget and total control of the budget. You will be the one 
making the decision as to how, where the budget will be spent.
    With that, I will yield to the Ranking Member, if you have 
any comments regarding the Rules Plan. Every person, every 
Member has a copy, has been provided to you, both the rules 
package as well as the oversight plan.
    Mr. Chabot. Thank you, Madam Chair, and I'll be brief. I 
want to reiterate my appreciation for both your and your 
staff's working with our side on the rules. I agree with you 
that there is protection of minority rights in the rules and 
more opportunities for minority input and we appreciate that. 
And I had the opportunity to provide a copy of the rules and go 
over the rule changes with my members at our organizational 
meeting on Monday. And to my knowledge, everyone is pleased 
with those and I would urge my colleagues to support the rules 
and I yield back.
    Chairwoman Velazquez. Are there any Members that wish to be 
recognized on the Rules Plan?
    [No response.]
    Chairwoman Velazquez. If no other Members wish to be 
recognized, I will yield to Mr. Gonzalez for a motion.
    Mr. Gonzalez. I so move that we adopt the Rules Plan for 
the Small Business Committee.
    Chairwoman Velazquez. Does anyone second the motion?
    Mr. Gohmert. Second.
    Chairwoman Velazquez. The question is on the adoption of 
the Rules Plan. All those in favor, say aye? All those opposed 
say no.
    [Ayes.]
    Chairwoman Velazquez. In the opinion of the chair, the ayes 
have it. The Rules Plan for the Small Business Committee in the 
U.S. House of Representatives for the 110th Congress are hereby 
adopted.

            ADOPTION OF THE COMMITTEE OVERSIGHT PLAN

    Chairwoman Velazquez. Today, the second order of business 
is the Committee Oversight Plan and this plan is the roadmap 
for the Small Business Committee. It details what we're going 
to do and how we're going to do it. Most importantly, it lets 
the small business community know that we're going to address 
their concerns.
    I want to thank the Ranking Member, Mr. Chabot, for his 
input in constructing this plan and for helping improve it in 
key areas such as the state tax and tort reform. This document 
represents priorities from both sides of the aisle, something I 
think is very important to best serve the small business sector 
and our nation and I am very happy to say that this Committee 
now will have broader and greater flexibility in the sense that 
now the jurisdiction of the Committee has been expanded, 
meaning that the legislation that we can show the 
Parliamentarian has a significant impact on the large number of 
businesses. We can ask for referral and this way, we can assure 
the small business sector that their voices will be heard 
throughout the legislative process.
    It is my goal that we set out to work together to address 
the most pressing concern for small businesses. As we all know, 
this includes healthcare regulations and ensuring a strong and 
vibrant SBA at their disposal.
    It is clear that small businesses face many obstacles. It 
is incumbent upon us to provide small businesses with relief 
and the tools they need to be successful and I strongly believe 
that the oversight plan will achieve this.
    At this point, I will yield to the Ranking Member.
    Mr. Chabot. Thank you, Madam Chair. I know we have a vote, 
so I'll be very brief. We agree and thank the minority for 
working with us on this oversight plan. We've had an 
opportunity to look at the differences that this will make to 
small businesses. It covers taxes and regulations, paperwork, 
healthcare, legal reform, Small Business Administration 
contracting and many other areas.
    So I would urge my colleagues to support the plan and thank 
you for your cooperation.
    Chairwoman Velazquez. Are there any Members that wish to be 
recognized?
    [No response.]
    Chairwoman Velazquez. If no other members wish to be 
recognized, I will yield to Mr. Gonzalez for a motion.
    Mr. Gonzalez. I would move that we adopt the Small Business 
Oversight Plan.
    Chairwoman Velazquez. Does anyone second the motion?
    Mr. Cuellar. Second.
    Mr. Gonzalez. The question is on the adoption of the 
Oversight Plan. All those in favor say aye. All those opposed 
say no.
    [Ayes.]
    Chairwoman Velazquez. In the opinion of the chair the ayes 
have it. The Oversight Plan for the Small Business Committee 
for the 110th Congress are hereby adopted. Thank you. With 
that, we adjourn the meeting.
    [Whereupon, at 12:40 p.m., the meeting was concluded.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
